HHS/OIG, Audit -"District of Columbia Efforts to Account for and Monitor Sub-Recipients' Use of Public Health
Preparedness and Response for Bioterrorism Program Funds,"(A-03-03-00385)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"District of Columbia Efforts to Account for and Monitor Sub-Recipients' use of Public Health Preparedness and Response
for Bioterrorism Program Funds," (A-03-03-00385)
January 30, 2004
Complete
Text of Report is available in PDF format (786 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our audit objectives were to determine whether the District of Columbia Department of Health (District) properly recorded,
summarized and reported bioterrorism preparedness transactions by specific focus area designated in the cooperative agreements
and whether the District has established controls and procedures to monitor sub-recipients expenditures of Centers for
Disease Control and Prevention (CDC) funds.  We found that the District generally accounted for Program funds in accordance
with the terms and conditions of the cooperative agreement and applicable departmental regulations and guidelines.  Specifically,
the District recorded, summarized and reported bioterrorism transactions by specific focus area.  However, in Fiscal
Year 2002, the supplemental funds were not segregated by focus area.  The District did not have a system to track
and monitor sub-recipients; such as, application and award processes, grant conditions, ongoing fiscal activities, and
reporting.